Eleventh Circuit’s decision on remand

United States v. Thomas, 810 Fed.Appx. 789 (2020)

Procedural Posture(s): Appellate Review.
810 Fed.Appx. 789
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.

West Headnotes (3)
[1]

No. 18-10956
|
Non-Argument Calendar
|
(April 22, 2020)

18 U.S.C.A. § 922(g)(1),

[2]

The Court of Appeals,
767 Fed.Appx. 758, affirmed. The
Supreme Court granted certiorari, vacated the judgment, and
remanded.

[1] any error was not plain, as to alleged facial Commerce
Clause violation in amended federal statute prohibiting a
felon from possessing a firearm;
[2] amended statute, as applied to defendant, did not exceed
the power of Congress under the Commerce Clause; and

Affirmed.

(q)(2)(A).

Commerce

Weapons and explosives

Weapons
provisions

Violation of other rights or

Weapons
Crime

Possession After Conviction of

As applied to defendant, the amended federal
statute, prohibiting a felon from possessing a
firearm, did not exceed the power of Congress
under the Commerce Clause; amended statute
required the firearm to have been shipped or
transported in, or to have otherwise affected,
interstate commerce, and factual basis for
defendant's negotiated guilty plea stated that the
firearm possessed by defendant in Florida had
been manufactured in Arizona. U.S. Const. art.

Holdings: The Court of Appeals, Hull, Senior Circuit Judge,
held that:

[3] defendant's substantial rights were not affected by
district court's plain error in failing to advise defendant
that government would be required to prove defendant's
knowledge of his status as convicted felon.

Constitutional questions

Any error was not plain, as to alleged facial
Commerce Clause violation in amended federal
statute prohibiting a felon from possessing
a firearm, including possession of a firearm
within 1,000 feet of a school zone; statute,
as amended, expressly required the firearm to
have been shipped or transported in, or to
have otherwise affected, interstate commerce, in
amending the statute Congress made extensive
findings regarding the effects upon interstate
commerce of gun possession in a school zone,
and neither the Supreme Court nor the Court of
Appeals had held that the statute, as amended,
exceeded the power of Congress under the
Commerce Clause. U.S. Const. art. 1, § 8, cl. 3;

UNITED STATES of America, Plaintiff-Appellee,
v.
Isaac THOMAS, Defendant-Appellant.

Synopsis
Background: Defendant entered a negotiated guilty plea in
the United States District Court for the Middle District of
Florida, Steven Merryday, Chief Judge, to possession of a
firearm by a convicted felon and possession of a firearm
within 1,000 feet of a school zone. Defendant appealed.

Criminal Law

1, § 8, cl. 3;

[3]

Criminal Law

18 U.S.C.A. § 922(g)(1).

Arraignment and plea

Defendant failed to show that his substantial
rights were affected by district court's plain error,
during colloquy at change-of-plea hearing for
defendant's negotiated guilty plea to possession

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

1a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

of firearm by felon, in failing to advise defendant
that, if he went to trial, the government would
be required to prove defendant's knowledge of
his status as convicted felon; as part of plea
agreement, defendant admitted that when he
had possessed the firearm, he had already been
convicted in state court of felony attempted
carjacking and his right to possess firearms
and ammunition had not been restored, and
at sentencing, defendant did not object to
presentence report's (PSR) statement that he had
served more than one year in prison for the

of
18 U.S.C. §§ 922(g)(1) and
924(a)(2) (“Count 1”),
and possession of a firearm within 1,000 feet of a school zone,
in violation of 18 U.S.C. §§ 922(q)(2)(A) and 924(a)(4)
(“Count 2”). For the first time on appeal, Thomas argues that:
(1) both his Count 1 and Count 2 firearm convictions should
be vacated because the
§ 922(g)(1) and
(q) statutes
violate the Commerce Clause and are unconstitutional; and
(2) his Count 1 firearm conviction should be vacated because
his plea colloquy failed to establish that he knew that he was
a convicted felon at the time he possessed the firearm.

18 U.S.C.A. § 922(g)

In 2019, this Court affirmed Thomas’s two convictions and

(1);
Fla. Stat. Ann. §§ 777.04(1),
(4)(c),
812.133(2)(b); Fed. R. Crim. P. 11(b)(1)(G).

total sentence.
United States v. Thomas, 767 F. App'x
758 (11th Cir. 2019). Thereafter, the Supreme Court decided

carjacking offense.

Rehaif v. United States, 588 U.S. ––––, 139 S. Ct. 2191,
204 L.Ed.2d 594 (2019), holding that in prosecutions under
West Codenotes
Prior Version Recognized as Unconstitutional
18 U.S.C.A. § 922(q)
Attorneys and Law Firms
*790 Todd B. Grandy, U.S. Attorney Service - Middle
District of Florida, U.S. Attorney's Office, Tampa, FL, for
Plaintiff-Appellee
Rosemary Cakmis, Federal Public Defender's Office,
Orlando, FL, Donna Lee Elm, Law Practice of Donna Elm,
Cottonwood, AZ, Mara Allison Guagliardo, Irina Hughes,
Federal Public Defender's Office, Tampa, FL, for DefendantAppellant
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 8:17-cr-00090-SDMMAP-1
ON REMAND FROM THE SUPREME COURT OF THE
UNITED STATES
Before JORDAN, TJOFLAT and HULL, Circuit Judges.
Opinion
HULL, Circuit Judge:
After pleading guilty, Isaac Thomas appeals his convictions
for possession of a firearm by a convicted felon, in violation

§§ 922(g) and
924(a)(2), the government must prove
that when the defendant possessed the firearm, “he knew
he belonged to the relevant category of persons barred from
possessing a firearm,” such as his status as a convicted felon
or as an alien unlawfully in the country. See
U.S. at ––––, 139 S. Ct. at 2194-97, 2200.

Rehaif, 588

On October 15, 2019, the Supreme Court granted Thomas’s
petition for a writ of certiorari, vacated our judgment, and
remanded for reconsideration in light of
Rehaif. After
that remand, we ordered supplemental *791 briefing. After
review, we: (1) restate substantial parts of our earlier opinion;
(2) add relevant facts and legal analysis as to Thomas’s plea
and sentencing on Count 1; and (3) review anew Thomas’s
firearm conviction in Count 1 in light of

Rehaif.

I. FACTUAL BACKGROUND
A. Offense Conduct
In January 2017, a fight broke out at a basketball game at
a public high school in Plant City, Florida. After the game
ended, several people, including Thomas, resumed the fight
a few blocks away from the school. Local law enforcement
officers responded at the scene with their police car’s lights
and siren activated.
One officer saw Thomas emerge from the crowd while
holding a firearm, which Thomas fired. Thomas then took

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

2a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

his firearm, ran down a road, and got into the passenger side
of a car. Officers pursued the car until it crashed. At that
point, Thomas abandoned the car and fled on foot. As Thomas
attempted to flee, he was shot by an officer and apprehended.
Officers recovered a Ruger 9-millimeter firearm, loaded with
six live rounds of 9-millimeter ammunition, approximately
ten feet away from where Thomas was apprehended. They
also found a spent 9-millimeter shell casing in the place where
Thomas was standing when he fired the weapon. In later
interviews with law enforcement officers, Thomas admitted
to possessing the Ruger 9-millimeter firearm and to firing it.
As a result, a federal grand jury indicted Thomas on Count 1,
possession of a firearm by a convicted felon, in violation of
18 U.S.C. §§ 922(g)(1) and 924(a)(2) (“the § 922(g)
offense”), and Count 2, possession of a firearm within 1,000
feet of a school zone, in violation of

18 U.S.C. §§ 922(q)

(2)(A) and
924(a)(4) (“the
§ 922(q) offense”). Under
Count 1, the indictment alleged that Thomas was prohibited
from possessing a firearm due to a 2012 felony conviction for
attempted carjacking. 1
1

The indictment did not allege that Thomas
was aware of his convicted felon status at the
time of the instant unlawful firearm possession.
Thomas’s supplemental brief expressly disclaims
any Rehaif-based challenge to the sufficiency of
his indictment.

B. Factual Basis for Thomas’s Guilty Plea
In August 2017, Thomas pled guilty pursuant to a written plea
agreement. As to Count 1, Thomas pled guilty to “knowingly
possess[ing] ... a firearm and ammunition” after “having
been previously convicted in any court of a crime punishable
by imprisonment for a term exceeding one year, including:
Attempted Carjacking, on or about August 21, 2012.” As
to Count 2, Thomas pled guilty to knowingly possessing a
firearm “that had moved in and affected interstate commerce”
within 1,000 feet of the grounds of a school, a place Thomas
knew or had reasonable cause to believe was a school zone.
As part of his plea agreement, Thomas agreed to the following
factual basis for his plea. The factual basis stated, inter alia,
that Thomas had previously been “convicted of the felony
of attempted carjacking” in 2012 and “[h]is right to possess
firearms and ammunition had not been restored.” Thereafter,

on January 20, 2017, Thomas held and fired a firearm as he
emerged from a crowd that was watching a fight outside of
a school. When police approached, Thomas fled on foot and
entered the passenger side of a car. Police pursued the car until
it crashed. As Thomas fled the vehicle, he was shot by police
and apprehended. Officers found Thomas’s loaded firearm,
a 9-millimeter Ruger, approximately *792 ten feet from
where he was apprehended and recovered a spent round of
ammunition from the spot where Thomas was standing when
he fired the firearm outside the school. During an interview
with law enforcement, Thomas admitted having and firing the
Ruger, but denied pointing it at any law enforcement officer.
The factual basis also established that the Ruger 9-millimeter
firearm Thomas possessed traveled in or affected interstate
commerce because it was manufactured outside of Florida,
where the instant offense occurred. Specifically, Alcohol,
Tobacco, Firearms, and Explosives Special Agent Walt
Lanier examined the firearm and determined that it was
manufactured in Arizona.
C. Plea Hearing
At his change-of-plea hearing, Thomas acknowledged that he
had discussed his plea agreement with his counsel and that he
had not been induced or forced to plead guilty. The magistrate
judge reviewed the terms and conditions of Thomas’s plea
agreement, the rights Thomas was relinquishing by pleading
guilty, the consequences of pleading guilty, and the elements
of the two charged offenses.
The magistrate judge summarized the elements of Thomas’s
§ 922(g) offense in Count
two charges. As to Thomas’s
1, the magistrate judge stated that the government would be
required to prove that: (1) before possessing the firearm on or
about January 20, 2017, Thomas was a convicted felon whose
rights had not been restored; (2) on or about January 20,
2017, Thomas knowingly possessed the Ruger 9-millimeter
firearm; and (3) the Ruger 9-millimeter firearm affected
interstate commerce, that is, it was manufactured outside the
State of Florida. Thomas agreed that he understood this
§
922(g) charge and the elements of the offense and pled guilty
to Count 1. In response to the magistrate judge’s questioning,
Thomas confirmed that he was a convicted felon at the time
he possessed the firearm near the school. Thomas’s counsel
agreed that the government would be able to prove at trial
that the firearm had traveled in interstate commerce and that
Thomas was a convicted felon.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

3a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

As to the § 922(q) offense in Count 2, the magistrate judge
explained that the government would be required to prove
that: (1) Thomas knowingly possessed the Ruger 9-millimeter
firearm within 1,000 feet of a school zone; (2) Thomas had
reason to believe that he was in a school zone; (3) the firearm
had traveled in or affected interstate commerce at some point
during its existence; and (4) Thomas acted knowingly. Again,
Thomas agreed that he understood the § 922(q) charge and
the elements of this offense and pled guilty to Count 2.
The magistrate judge found that Thomas was competent
and capable of entering an informed plea, that his plea
was knowingly and voluntarily made, and that his plea was
supported by an independent factual basis containing all
the essential elements of his offenses. The magistrate judge
recommended that Thomas’s guilty plea be accepted. Without
objection, the district court accepted Thomas’s guilty plea and
adjudged him guilty.
D. Presentence Investigation Report
Thomas’s presentence investigation report (“PSI”) assigned
him a total offense level of 34 and a criminal history
category of III. Because the PSI found that Thomas had fired
the firearm at a law enforcement officer who was on the
scene, it recommended calculating Thomas’s offense level
for Count 1, pursuant to

U.S.S.G. §§ 2K2.1(c)(1)(A) and

2X1.1(c)(1), by applying *793 the base offense level for
attempted murder in § 2A2.1(a)(1).
The criminal history portion of the PSI stated that Thomas
had several prior criminal convictions, including: (1) several
juvenile adjudications for both felonies and misdemeanors,
the last of which resulted in Thomas being sentenced to one
year of imprisonment at the Florida Department of Juvenile
Justice; (2) a January 31, 2011 conviction, pursuant to a
guilty plea, for felony attempted carjacking in Florida state
court for which he initially was sentenced to 364 days in
prison and three years of probation, but after his probation
was revoked on August 21, 2012, he was sentenced to 13
months more in prison; and (3) two July 2012 misdemeanor
convictions, pursuant to guilty pleas, for resisting an officer
without violence in Florida state court for which he was
sentenced to 30 days in prison. The PSI also stated that, in
connection with his 2011 attempted carjacking conviction,
Thomas “had his civil rights to carry a firearm rescinded and
they were never restored.” The PSI assigned three criminal
history points for Thomas’s attempted carjacking conviction

and one point each for Thomas’s resisting an officer without
violence convictions, for a total of five criminal history
points.
The PSI’s guidelines calculations resulted in an advisory
guidelines range of 188 to 235 months’ imprisonment.
However, the statutorily authorized maximum sentences for
Count 1 under

§§ 922(g)(1) and

924(a)(2) and Count

§§ 922(q)(2)(A) and
924(a)(4) were less
2 under
than the minimum of Thomas’s advisory guidelines range.
Under

§§ 922(g)(1) and

924(a)(2), the maximum term

of imprisonment is ten years, and under

§§ 922(q)(2)

(A) and
924(a)(4), the maximum term of imprisonment
is five years. Also, the term of imprisonment for Count
2 under
§§ 922(q)(2)(A) and
924(a)(4) had to run
consecutive to any other term of imprisonment imposed.
See
18 U.S.C. § 924(a)(4). Therefore, Count 1’s adjusted
advisory guidelines range was reduced to 120 months’
U.S.S.G. §
imprisonment, the statutory maximum. See
5G1.1(a) (providing that, “[w]here the statutorily authorized
maximum sentence is less than the minimum of the applicable
guideline range, the statutorily authorized maximum sentence
shall be the guideline sentence.”). Count 2’s adjusted advisory
guidelines range was reduced to 60 months’ imprisonment,
the statutory maximum. See id.
Thomas filed objections to the PSI, including to whether
he had fired his firearm at an officer, most of which are
not relevant to his appeal. We note however, that in his
objections, Thomas argued that he served a prison sentence
of one year and one month for his attempted carjacking
offense and should have received only two criminal history
points. In response, the probation officer stated that Thomas’s
“total term of imprisonment for this conviction [was] two
years and 30 days” and therefore three criminal history points
were warranted under the Sentencing Guidelines. This total
imprisonment of two years and 30 days consisted of: (1) his
initial 364-day sentence, and (2) his subsequent 13-month
sentence after his probation revocation.
Prior to sentencing, Thomas also filed a sentencing
memorandum and motion for a downward variance,
requesting that the district court impose a total sentence of 70
months’ imprisonment. In both his objections to the PSI and
his sentencing memorandum, Thomas did not argue (1) that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

4a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

§ 922(g)(1) and
(q) were unconstitutional, or (2) that
the plea colloquy omitted an essential element of either of his
charges.
E. Thomas’s Sentencing
A large part of Thomas’s sentencing was taken up with
the issue of whether Thomas *794 fired the firearm at
a law enforcement officer in an attempt to murder the
officer for purposes of calculating his offense level under
U.S.S.G. §§ 2K2.5(c)(1)(A),
2X1.1, and
2A2.1(a)
(1). In that regard, the district court viewed video evidence
and heard testimony from two law enforcement officers
involved in Thomas’s apprehension and another officer who
investigated the officer-involved shooting of Thomas. Based
on the evidence, the district court found that Thomas had not
intended to kill the law enforcement officer when he fired the
firearm in the direction of the officer. However, the district
court rejected Thomas’s argument that he merely fired the
gun into the air to disburse the crowd and found instead
that the two-level reckless endangerment enhancement of
U.S.S.G. § 3C1.2 applied.
As for his criminal history points, Thomas’s objection
changed slightly. Thomas argued that his attempted
carjacking conviction should have received only two criminal
history points because he committed that offense as a juvenile.
The probation officer explained that even though Thomas was
a juvenile at the time of the offense, he was convicted as
an adult, and his total sentence—the initial 364-day prison
term plus the 13-month prison term after Thomas’s probation
revocation—exceeded one year and one month for purposes
of assigning three criminal history points under

U.S.S.G.

§ 4A1.2(d)(1). 2 [When Thomas’s counsel agreed with the
probation officer that the two sentences should be added
together to determine criminal history points, the district court
overruled the objection.
2

While the sentencing transcript indicates that
the probation officer stated that Thomas’s initial
sentence was for 264 days, this appears to be
a typographical error, as the PSI stated, without
objection, that the sentence was for 364 days.

Ultimately, the district court revised Thomas’s total offense
level down to 32. Thomas’s criminal history category
remained at III, which yielded an advisory guidelines range of
151 to 188 months’ imprisonment. See U.S.S.G. Ch. 5 Part A.

The law enforcement officer in whose direction Thomas had
fired the firearm gave a victim impact statement. During
his allocution, Thomas apologized to anyone traumatized
by his actions and stated that he had “made a mistake out
of impulse,” but was willing to accept responsibility for
what he had done. Thomas insisted, however, that he did
not intend to hurt anyone and did not point or fire the
firearm at any law enforcement officers. After considering
the parties’ arguments, Thomas’s allocution, the advisory
guidelines range, and the
18 U.S.C. § 3553(a) factors,
the district court imposed the statutory maximum 120-month
§ 922(g) offense in Count 1,
sentence for Thomas’s
followed by a consecutive statutory maximum 60-month
sentence for Thomas’s
total of 180 months.

§ 922(q) offense in Count 2, for a

When the district court asked for objections, Thomas’s
counsel stated that Thomas objected to the procedural and
substantive reasonableness of the sentence. Throughout the
district court proceedings, Thomas did not claim: (1) that his
guilty plea was involuntary; (2) that his plea colloquy omitted
an essential element of his
§ 922(g) offense in Count 1; or
(3) that he did not know he was a convicted felon.

II.
18 U.S.C. § 922(q): POSSESSION
OF A FIREARM NEAR SCHOOL
On appeal and for the first time, Thomas argues that his
Count 2 conviction under
and

18 U.S.C. §§ 922(q)(2)(A)

924(a)(4) should be vacated because

§ 922(q) is

unconstitutional, *795 both facially and as applied. 3 He
notes that in
United States v. Lopez, 514 U.S. 549, 115 S.
Ct. 1624, 131 L.Ed.2d 626 (1995), the Supreme Court struck
down the Gun-Free School Zones Act of 1990, which was an
earlier version of § 922(q), because it exceeded Congress’s
powers under the Commerce Clause. Although Congress
amended
§ 922(q) to comply with
Lopez, Thomas
argues that the amended version is still unconstitutional
because it did not cure the Commerce Clause problems
identified in
Lopez and
United States v. Morrison, 529
U.S. 598, 120 S. Ct. 1740, 146 L.Ed.2d 658 (2000). We review

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

5a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

Lopez,
922(q).
3

A.

Morrison, and then the amended version of

§

We generally review the constitutionality of a
statute de novo. United States v. Wright, 607 F.3d
708, 715 (11th Cir. 2010). However, where a
defendant raises a constitutional challenge for the
first time on appeal, we review only for plain error.
Id.
Lopez and

Morrison

In 1995, the Supreme Court held that a prior version of
§
922(q), also known as the Gun-Free School Zones Act of
1990, was unconstitutional because it exceeded Congress’s
authority under the Commerce Clause.
Lopez, 514 U.S.
at 551, 561-63, 115 S. Ct. at 1626, 1630-32; see Pub. L.
No. 101-647, 101 Stat. 4789, 4844 (1990). The version of
§ 922(q) at issue in
Lopez made it a federal offense
“knowingly to possess a firearm at a place that the individual
knows, or has reasonable cause to believe, is a school zone.”
Lopez, 514 U.S. at 551, 115 S. Ct. at 1626.
The Supreme Court held that this version of
§ 922(q)
violated the Commerce Clause because it did not limit
the offense to situations substantially affecting interstate
commerce.

Id. at 561, 115 S. Ct. at 1630-31. In particular,

the
Lopez Court pointed out that
§ 922(q) “contain[ed]
no jurisdictional element which would ensure, through caseby-case inquiry, that the firearm possession in question
affect[ed] interstate commerce.”

Id. at 561, 115 S. Ct.

§ 922(q)
at 1631. The Court also observed that neither
nor its legislative history contained express congressional
findings regarding the effects upon interstate commerce of
gun possession in a school zone.
at 1631-32.

Id. at 562-63, 115 S. Ct.

Subsequently in 2000, the Supreme Court struck down
certain provisions of the Violence Against Women Act as
unconstitutional for exceeding Congress’s authority under
the Commerce Clause.

Morrison, 529 U.S. at 605, 613,

617, 120 S. Ct. at 1747, 1751-52, 1754. While

Morrison

involved a wholly different statute, Thomas cites

Morrison

for its dicta discussing the
Lopez decision, its reasoning,
and its labeling of the “link between gun possession and
a substantial effect on interstate commerce” as attenuated.
Id. at 609-14, 120 S. Ct. at 1749-52.

B. Post-

Lopez Amendment to

18 U.S.C. § 922(q)

Responding to
Lopez, Congress amended
§ 922(q)
to include an express interstate commerce requirement. See
Pub. L. No. 104-208, § 657, 110 Stat. 3009-369 to 370
(1996) (amending the Gun-Free School Zones Act of 1990).
Section 922(q) now requires that the offender “knowingly
[ ] possess a firearm that has moved in or that otherwise affects
interstate or foreign commerce at a place that the individual
knows, or has reasonable cause to believe, is a school zone.”
18 U.S.C. § 922(q)(2)(A) (emphasis added). Congress
also amended
§ 922(q) to include extensive congressional
findings regarding the effects upon interstate commerce of
gun possession in a school zone. See
(1)(A)-(I).

18 U.S.C. § 922(q)

*796 C. Thomas’s Constitutional Claims
As an initial matter, because Thomas failed to raise his
constitutional challenge to
§ 922(q) below, we review it
for plain error. See United States v. Wright, 607 F.3d 708, 715
(11th Cir. 2010).
[1] Although Thomas argues that the amended
is facially unconstitutional based on

§ 922(q)

Lopez, Congress

amended
§ 922(q) to include an explicit “affecting
interstate commerce” element to cure the deficiencies
identified in
Lopez. See
18 U.S.C. § 922(q)(2)
(A) (providing that the offender must possess “a firearm
that has moved in or that otherwise affects interstate or
foreign commerce”). The amended
§ 922(q) also includes
extensive congressional findings regarding the effects upon
interstate commerce of gun possession in a school zone
post- Lopez, such as that firearms move easily in interstate
commerce and that they move in interstate commerce during
their manufacturing process. See
(C), (D).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18 U.S.C. §§ 922(q)(1)

6

6a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

Thomas’s reliance on

Morrison fares no better. Although

the Supreme Court in
Morrison referenced an attenuated
link between interstate commerce and firearm possession in
the pre-

Lopez version of

all the amended version of

III.
18 U.S.C. § 922(g)(1): FELON
IN POSSESSION OF A FIREARM

§ 922(q), it did not address at

In his supplemental briefing, Thomas argues that we must

§ 922(q), much less hold it is

vacate his

§ 922(g) conviction in Count 1 in light of

Morrison, 529 U.S. at 609-14, 120

Rehaif. In particular, Thomas contends that because the
district court failed to advise him about the additional

The government stresses that Thomas has not shown that

knowledge element announced in
Rehaif (in Thomas’s
case, knowledge of his status as a convicted felon), his plea
was not knowingly and voluntarily entered and must be set
aside.

unconstitutional. See
S. Ct. at 1749-52.

§ 922(q) is unconstitutional. Our sister circuits under de
novo review have rejected constitutional challenges to
922(q) that were similar to Thomas’s. See

§

United States v.

Nieves-Castano, 480 F.3d 597, 601 (1st Cir. 2007); United
States v. Danks, 221 F.3d 1037, 1038-39 (8th Cir. 1999). At
a minimum, Thomas has failed to demonstrate plain error

A. Plain Error Review

as to the constitutionality of

plea for plain error. See
United States v. Moriarty, 429
F.3d 1012, 1018-19 (11th Cir. 2005). Plain error occurs when
(1) there is error, (2) that is plain, and (3) that affected

§ 922(q) because neither the

Supreme Court nor this Court has held that the amended

§

United States v. Castro,
922(q) is unconstitutional. See
455 F.3d 1249, 1253 (11th Cir. 2006).
[2] As to Thomas’s argument that

§ 922(q) is

unconstitutional as applied to him, the amended
§
922(q) now requires a nexus to interstate commerce where
the firearm has moved in or otherwise affects interstate
commerce. See
18 U.S.C. § 922(q)(2)(A). And the
record here established that Thomas’s firearm had moved
in interstate commerce. The factual basis in Thomas’s
plea agreement stated that the firearm Thomas possessed
traveled in or affected interstate commerce because it was
manufactured in Arizona and he possessed it in Florida. 4
Therefore, Thomas has failed to show error, much less plain
error, as to the constitutionality of
affirm his Count 2 conviction under

§ 922(q), and we
§§ 922(q)(2)(A) and

924(a)(4).
4

Rehaif-type claim in the
Because Thomas did not raise a
district court, we review *797 his challenge to his guilty

the defendant’s substantial rights.
Id. at 1019. “If all
three conditions are met, we may exercise our discretion to
recognize a forfeited error, but only if the error seriously
affects the fairness, integrity or public reputation of judicial
proceedings.”

Id. (quotation marks and alteration omitted).

Rehaif Claim
B. Thomas’s
Federal Rule of Criminal Procedure 11 requires that the
district court during the change-of-plea hearing, among other
things, “inform the defendant of, and determine that the
defendant understands, ... the nature of each charge to which
[he] is pleading.” Fed. R. Crim. P. 11(b)(1)(G).
[3] Here, as
Rehaif makes plain, the district court erred
when it failed to advise Thomas during the plea colloquy that
knowledge of his status as a felon at the time of his offense
was an element of his

As an additional point, at Thomas’s change-ofplea hearing, Thomas’s counsel confirmed that the
government would have been able to prove at trial
that the firearm traveled in interstate commerce.

§§ 922(g) and

924(a)(2) offense

that the government must prove. See
Rehaif, 588 U.S.
at ––––, 139 S. Ct. at 2194-97. Thus, in this direct appeal
context, Thomas has shown error that is plain. The question
becomes whether Thomas can satisfy the third prong of plain
error review.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

7a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

To show that an error affected substantial rights in the
guilty plea context, the defendant “must show a reasonable
probability that, but for the error, he would not have entered
Moriarty, 429 F.3d at 1020; see also
United
his plea.”
States v. Dominguez Benitez, 542 U.S. 74, 83, 124 S. Ct.
2333, 2340, 159 L.Ed.2d 157 (2004). This Court has indicated
that the defendant’s burden with respect to the third prong of
plain error review is a “daunting obstacle” that is difficult to
satisfy, and that, if the record shows “that it is as likely that
the error had no effect on [his] decision, he cannot prevail.”
United States v. Davila, 749 F.3d 982, 994 (11th Cir. 2014)
(quotation marks omitted, alteration in original). Based on the
record as a whole, we conclude that Thomas has not met his
burden to show that if the district court had properly advised
Rehaif’s knowledge element, then he would not
him of
have entered a guilty plea.
First, as part of his plea, Thomas admitted that when he
possessed the firearm on January 20, 2017, he had already
been convicted of the felony of attempted carjacking in 2011
and that his right to possess firearms and ammunition had
not been restored. Likewise, at sentencing, Thomas did not
object to the facts in his PSI that he pled guilty to the
attempted carjacking offense, that he was sentenced to more
than one year in prison (the initial 364-day prison term and
the additional 13-month prison term when his probation was
revoked), and that his civil rights to carry a firearm were
rescinded and never restored. 5
5

Thomas points out that, although he was sentenced
to an additional 13-month prison term on August
21, 2012, he was released from custody less than
two months later on October 1, 2012. Thomas’s
probation revocation was prompted by his arrest
on May 14, 2012 for resisting an officer without
violence, and it is not clear from the record how
much of the 13-month sentence Thomas actually
served before he was released. Whether Thomas
served an additional 13 months, 5 months, or 6
weeks after his probation was revoked, the fact
remains that, at sentencing, Thomas did not dispute
that he had served more than one year in prison for
his attempted carjacking conviction.

In addition, the government stresses that the attempted
carjacking offense to which Thomas pled guilty in Florida
state court was a serious, second-degree felony *798
punishable by up to 15 years in prison. See Fla. Stat.

§§ 812.133(2)(b) &

777.04(1),

(4)(c) (designating

attempted carjacking as a second-degree felony); Fla. Stat.
§ 775.082(3)(c)(2009) (providing a penalty of “imprisonment
not exceeding 15 years” for a second-degree felony).
Further, the state court that accepted Thomas’s guilty plea
was required by Florida law to first ensure that Thomas
understood that the statutory maximum penalty for his
attempted carjacking offense was 15 years’ imprisonment.
See
Fla. R. Crim. P. 3.172(c)(1) (requiring the trial judge,
before accepting a plea of guilty, to address the defendant
personally and determine on the record whether the defendant
understands, among other things, “the maximum possible
penalty” provided by law);
Ashley v. State, 614 So. 2d
486, 488 (Fla. 1993). Thomas does not point to anything in
the record to suggest that the state court judge who accepted
his guilty plea failed to comply with state law. See
United
States v. Burghardt, 939 F.3d 397, 404-06 (1st Cir. 2019)
(concluding that the defendant failed to carry his burden on
plain error review to show a reasonable probability that he
would not have pled guilty had the district court advised
him of
Rehaif’s knowledge element based in part on an
analogous New Hampshire law requiring that the defendant
be advised of his maximum sentence and the fact that the
defendant did not present evidence indicating that the state
court in his case did not conform to state law). This record
indicates, if anything, that Thomas was aware of his felon
status when he possessed the 9-millimeter Ruger in 2017.
Notably, Thomas does not now claim, and never has claimed,
that he did not know he was a convicted felon and that
he would have proceeded to trial had he known that the
government must prove this knowledge element. In this
respect, the cases Thomas relies on stand in stark contrast and
hurt, rather than help, him. For example, in

United States v.

Brown, the defendant was reluctant to plead guilty. Brown,
117 F.3d 471, 473 (11th Cir. 1997). At the plea colloquy,
both the defendant and his counsel explained to the district
court that at the time of his offense, the defendant had not
known that structuring currency transactions was illegal and
that he was convinced to plead guilty only after his attorney
showed him then-binding, but later overruled, caselaw from
this Circuit holding that knowledge of illegality was not an
element of the currency structuring offense.

Id.

Similarly, the plea colloquy in the Second Circuit’s United
States v. Balde indicated that the defendant in that case would

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

8a

United States v. Thomas, 810 Fed.Appx. 789 (2020)

not have pled guilty had the district court informed him, per
Rehaif, that the government must prove he knew of his
status as an illegal alien.

Balde, 943 F.3d 73, 95-98 (2d

Cir. 2019). The defendant in
Balde “vigorously argued”
in the district court that he was lawfully present in the
United States, preserved that issue for appellate review in
his plea agreement, and continued to maintain during his
plea colloquy that he thought he had been paroled into the
United States at the time of his firearm offense. 6

Id. at

*799 United States v. Ochoa-Gonzalez,
97; see also
598 F.3d 1033, 1037-38 (8th Cir. 2010) (concluding that a
defendant established plain error that affected her substantial
rights where she maintained at her plea hearing that she did
not know until after she was indicted that the number on her
passport belonged to a real person, an essential element of
her aggravated identity theft offense of which she was not
advised).
6

We reject Thomas’s suggestion that either of these
cases supports the proposition that a district court’s
plea colloquy omitting an element of an offense
is per se reversible error.
Balde applied plain
error review and determined, based “on the facts of
this case,” that the defendant had carried his burden
to show that the error affected his substantial

End of Document

rights. See

Balde, 943 F.3d at 96-97.

Brown

involved an appeal of the denial of a
28
U.S.C. § 2255 motion in which the “undisputed
facts” showed not only that the defendant was
misinformed about an element of his offense,
but that the “misinformation caused him to plead
guilty.”

Brown, 117 F.3d at 477.

In short, on plain error review, Thomas has the burden to show
a reasonable probability that he would not have pled guilty
but for the district court’s Rehaif error, and, on this record,
Thomas has not done so. Accordingly, we affirm Thomas’s
Count 1 conviction under

§§ 922(g) and

924(a)(2).

IV. CONCLUSION
For the reasons stated, we affirm Thomas’s convictions and
sentence.
AFFIRMED.
All Citations
810 Fed.Appx. 789

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

9a

Eleventh Circuit’s original decision

United States v. Thomas, 767 Fed.Appx. 758 (2019)

767 Fed.Appx. 758
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.

West Headnotes (2)
[1]

Weapons
provisions

No. 18-10956
|
Non-Argument Calendar
|
(March 29, 2019)
Synopsis
Background: Defendant was convicted in the United States
District Court for the Middle District of Florida, No. 8:17cr-00090-SDM-MAP-1, of possession of a firearm by a
convicted felon and possession of firearm within 1,000 feet
of school zone. Defendant appealed.

[1] defendant's conviction under provision prohibiting
possession of firearm within 1,000 feet of school zone
complied with interstate commerce requirement, and
[2] government did not have to establish that defendant
knew about his prohibited status as convicted felon when he
possessed firearm.

Federal Offenses and
Violation of other rights or

Defendant's conviction under provision
prohibiting possession of firearm within 1,000
feet of school zone complied with interstate
commerce requirement, both facially and as
applied, since Congress made extensive findings
regarding effects upon interstate commerce
of gun possession in school zone, provision
required offender to “knowingly [ ] possess a
firearm that has moved in or that otherwise
affects interstate or foreign commerce at a place
that the individual knows, or has reasonable
cause to believe, is a school zone,” and firearm
possessed by defendant in Florida had been
manufactured in Arizona. U.S.C.A. Const. Art.

UNITED STATES of America, Plaintiff-Appellee,
v.
Isaac THOMAS, Defendant-Appellant.

Holdings: The Court of Appeals held that:

Commerce
Prosecutions

1, § 8, cl. 3;

18 U.S.C.A. §§ 922(q)(2)(A),

924(a)(4).

[2]

Weapons

Particular Offenses

Government did not have to establish that
defendant knew about his prohibited status as
convicted felon when he possessed firearm to
convict him on charge that he was felon in
possession of firearm; prosecution had to show
only that defendant consciously possessed what
he knew to be firearm.
(1).

18 U.S.C.A. § 922(g)

1 Cases that cite this headnote
Affirmed.
Procedural Posture(s): Appellate Review; Preliminary
Hearing or Grand Jury Proceeding Motion or Objection; Trial
or Guilt Phase Motion or Objection.

West Codenotes
Prior Version Held Unconstitutional
18 U.S.C.A. § 922(q)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1 10a

United States v. Thomas, 767 Fed.Appx. 758 (2019)

Attorneys and Law Firms
*759 Todd B. Grandy, U.S. Attorney Service - Middle
District of Florida, U.S. Attorney's Office, Tampa, FL, for
Plaintiff-Appellee
Rosemary Cakmis, Donna Lee Elm, Federal Public
Defender's Office, Orlando, FL, Mara Allison Guagliardo,
Irina Hughes, Federal Public Defender's Office, Tampa, FL,
for Defendant-Appellant
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 8:17-cr-00090-SDMMAP-1
Before TJOFLAT, JORDAN and HULL, Circuit Judges.
Opinion
PER CURIAM:
After pleading guilty, Isaac Thomas appeals his convictions
for possession of a firearm by a convicted felon, in violation
of
18 U.S.C. §§ 922(g)(1) and
924(a)(2) (“Count 1”),
and possession of a firearm within 1,000 feet of a school zone,
in violation of 18 U.S.C. §§ 922(q)(2)(A) and 924(a)(4)
(“Count 2”). For the first time on appeal, Thomas argues that
both his Count 1 and Count 2 firearm convictions should be
vacated because the § 922(g)(1) and (q) statutes violate
the Commerce Clause and are therefore unconstitutional.
Thomas also contends that his Count 1 conviction should
be vacated because his indictment and plea colloquy were
deficient by failing to establish that he knew that he was a
convicted felon at the time he possessed the firearm. After
careful review, we affirm Thomas’s convictions.

I. FACTUAL BACKGROUND
A. Offense Conduct
In January 2017, a fight broke out at a basketball game at
a public high school in Plant City, Florida. After the game
ended, several people, including Thomas, resumed the fight
a few blocks away from the school. Local law enforcement
officers responded to the scene.
One officer saw Thomas holding a firearm, which Thomas
fired. Thomas then took his firearm, ran down a road, and got
into a car. Officers pursued the car until it crashed. At that

point, Thomas abandoned the car and fled on foot. As Thomas
attempted to flee, he was shot by an officer and apprehended.
Officers recovered a Ruger 9 millimeter firearm, loaded with
six live rounds of 9 millimeter ammunition, approximately
ten feet from where Thomas was apprehended. *760 They
also found a spent 9 millimeter shell casing in the place where
Thomas was standing when he fired the weapon. In later
interviews with law enforcement officers, Thomas admitted
to possessing the Ruger 9 millimeter firearm and to firing it.
As a result, a grand jury indicted Thomas on Count 1,
possession of a firearm by a convicted felon, in violation of
18 U.S.C. §§ 922(g)(1) and
924(a)(2), and Count 2,
possession of a firearm within 1,000 feet of a school zone,
18 U.S.C. §§ 922(q)(2)(A) and
924(a)
in violation of
(4). Under Count 1, the indictment alleged that Thomas was
prohibited from possessing a firearm due to a 2012 felony
conviction for attempted carjacking. The indictment did not
allege that Thomas was aware of his convicted felon status at
the time of the instant unlawful firearm possession.
B. Guilty Plea
Thomas pled guilty pursuant to a written plea agreement. The
plea agreement contained a factual basis, which established
(1) Thomas’s convicted felon status based on his 2012
attempted carjacking conviction, and (2) that the Ruger
9 millimeter firearm he possessed traveled in or affected
interstate commerce because it was manufactured outside
of Florida, where the instant offense occurred. Specifically,
Alcohol, Tobacco, Firearms, and Explosives Special Agent
Walt Lanier examined the firearm and determined that it
was manufactured in Arizona. There was nothing in the plea
agreement’s factual basis indicating whether Thomas was
aware of his prohibited felon status when he possessed the
firearm.
At Thomas’s change-of-plea hearing, a magistrate judge
asked Thomas if he had a chance to discuss his plea
agreement with his counsel, and Thomas said yes. The
magistrate judge summarized the elements of Thomas’s two
charges. As to Count 1, the magistrate judge stated that
the government would be required to prove that: (1) before
possessing the firearm on or about January 20, 2017, Thomas
was a convicted felon whose rights had not been restored;
(2) on or about January 20, 2017, Thomas knowingly
possessed the Ruger 9 millimeter firearm; and (3) the Ruger
9 millimeter firearm affected interstate commerce, that is, it

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2 11a

United States v. Thomas, 767 Fed.Appx. 758 (2019)

was manufactured outside the State of Florida. As to Count
2, the magistrate judge explained that the government would
be required to prove that: (1) Thomas knowingly possessed
the Ruger 9 millimeter firearm within 1,000 feet of a school
zone; (2) Thomas had reason to believe that he was in a school
zone; (3) the firearm had traveled in or affected interstate
commerce at some point during its existence; and (4) Thomas
acted knowingly.
The magistrate judge asked Thomas if he understood his
charges and the elements of his offenses, and Thomas
responded yes. Thomas then pled guilty to Counts 1 and
2. After being questioned by the magistrate judge, Thomas
also confirmed that he was a convicted felon at the time
he possessed the 9 millimeter firearm near the school, and
Thomas’s counsel stated that the government would have
been able to prove Thomas’s convicted felon status and that
the firearm traveled in interstate commerce.
The magistrate judge then found that Thomas was competent
and capable of entering an informed plea, his plea was
knowingly made, and his plea was supported by an
independent basis in fact containing all of the essential
elements of his offenses. The magistrate judge recommended
that Thomas’s guilty plea be accepted. Without objection, the
district court accepted Thomas’s guilty plea and adjudged him
guilty.
*761 C. Sentencing
Thomas’s presentence investigation report (“PSI”) assigned
him a total offense level of 34 and a criminal history category
of III. Based on a total offense level of 34 and a criminal
history category of III, Thomas’s advisory guidelines range
was 188 to 235 months’ imprisonment.
However, the statutorily authorized maximum sentences for
Count 1 under

§§ 922(g)(1) and

924(a)(2) and Count

2 under
§§ 922(q)(2)(A) and
924(a)(4) were less
than the minimum of Thomas’s guidelines range of 188
to 235 months’ imprisonment. Under

§§ 922(g)(1) and

term of imprisonment imposed. See
18 U.S.C. § 924(a)
(4). Therefore, Count 1’s adjusted advisory guidelines range
was reduced to 120 months’ imprisonment, the statutory
maximum. See
U.S.S.G. § 5G1.1(a) (providing that,
“[w]here the statutorily authorized maximum sentence is
less than the minimum of the applicable guideline range,
the statutorily authorized maximum sentence shall be the
guideline sentence.”). Count 2’s adjusted advisory guidelines
range was reduced to 60 months’ imprisonment, the statutory
maximum. See id.
Thomas filed objections to the PSI that are not relevant
to his appeal. Prior to sentencing, Thomas also filed
a sentencing memorandum and motion for a downward
variance, requesting that the district court impose a total
sentence of 70 months’ imprisonment. In both his objections
to the PSI and his sentencing memorandum, Thomas
§ 922(g)(1) and
(q) were
did not argue (1) that
unconstitutional, or (2) that the indictment or plea colloquy
omitted an essential element of either of his charges.
At sentencing, the district court sustained some of Thomas’s
objections and revised his total offense level to 32. Thomas’s
criminal history category remained at III. Based on a total
offense level of 32 and a criminal history category of III,
Thomas’s revised advisory guidelines range was 151 to 188
months’ imprisonment. See U.S.S.G. Ch. 5 Part A.
The district court heard the parties’ sentencing arguments and
Thomas’s allocution. Thomas’s counsel requested a 70-month
total sentence and the government requested 180 months.
Thomas’s counsel again did not raise any constitutional
challenges to
§ 922(g)(1) and
(q) or argue that his
indictment or plea colloquy omitted essential elements.
After considering the advisory guidelines range, the
applicable statutory penalties, and the 18 U.S.C. § 3553(a)
factors, the district court imposed the statutory maximum
sentences of 120 months as to Count 1 and 60 months as to
Count 2, to run consecutively.

924(a)(2), the maximum term of imprisonment is ten
years, and under
§§ 922(q)(2)(A) and
924(a)(4), the
maximum term of imprisonment is five years. Also, the
term of imprisonment for Count 2 under
(A) and

§§ 922(q)(2)

II.
18 U.S.C. § 922(q):
Possession of Firearm Near School

924(a)(4) had to run consecutive to any other

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3 12a

United States v. Thomas, 767 Fed.Appx. 758 (2019)

[1] On appeal and for the first time, Thomas argues that
his Count 2 conviction under
and

18 U.S.C. §§ 922(q)(2)(A)

924(a)(4) should be vacated because

§ 922(q) is
1

unconstitutional, both facially and as applied. He notes that
in
*762 United States v. Lopez, 514 U.S. 549, 115 S.Ct.
1624, 131 L.Ed.2d 626 (1995), the Supreme Court struck
down the Gun-Free School Zones Act of 1990, which was an
earlier version of § 922(q), because it exceeded Congress’s
powers under the Commerce Clause. Although Congress
§ 922(q) to comply with
Lopez, Thomas
amended
argues that the amended version is still unconstitutional
because it did not cure the Commerce Clause problems
identified in
Lopez and
United States v. Morrison, 529
U.S. 598, 120 S.Ct. 1740, 146 L.Ed.2d 658 (2000). We review
Lopez,
922(q).
1

Morrison, and then the amended version of

§

authority under the Commerce Clause.
Lopez, 514 U.S. at
551, 561-63, 115 S.Ct. at 1626, 1630-32; see Pub. L. No. 101–
647, 101 Stat. 4789, 4844 (1990). The version of

at issue in
Lopez made it a federal offense “knowingly to
possess a firearm at a place that the individual knows, or has
reasonable cause to believe, is a school zone.”
U.S. at 551, 115 S.Ct. at 1626.

United States v. Hesser, 800 F.3d 1310, 1324
(11th Cir. 2015) (quotation marks omitted). “An
error is plain if it is obvious and clear under current
law.”
United States v. Eckhardt, 466 F.3d 938,
948 (11th Cir. 2006). “When the explicit language
of a statute or rule does not specifically resolve
an issue, there can be no plain error where there
is no precedent from the Supreme Court or this
Court directly resolving it.”
United States
v. Castro, 455 F.3d 1249, 1253 (11th Cir. 2006)
(quotation marks omitted).
A. Lopez and Morrison
In 1995, the Supreme Court held that a prior version of
§
922(q), also known as the Gun–Free School Zones Act of
1990, was unconstitutional because it exceeded Congress’s

Lopez, 514

§ 922(q)
The Supreme Court held that this version of
violated the Commerce Clause because it did not limit
the offense to situations substantially affecting interstate
commerce.

Id. at 561, 115 S.Ct. at 1630-31. In particular,

Lopez Court pointed out that
§ 922(q) “contain[ed]
the
no jurisdictional element which would ensure, through caseby-case inquiry, that the firearm possession in question
affect[ed] interstate commerce.”

We generally review the constitutionality of a
statute de novo. United States v. Wright, 607
F.3d 708, 715 (11th Cir. 2010). However, where
a defendant raises a constitutional challenge for
the first time on appeal, we review only for plain
error. Id. Under the plain error rule, we will
reverse a district court’s decision only if there
is: “(1) error, (2) that is plain, [ ] (3) that has
affected the defendant’s substantial rights,” and
(4) that “seriously affect[s] the fairness, integrity
or public reputation of judicial proceedings.”

§ 922(q)

Id. at 561, 115 S.Ct.

§ 922(q)
at 1631. The Court also observed that neither
nor its legislative history contained express congressional
findings regarding the effects upon interstate commerce of
gun possession in a school zone.
at 1631-32.

Id. at 562-63, 115 S.Ct.

Subsequently in 2000, the Supreme Court struck down
certain provisions of the Violence Against Women Act as
unconstitutional for exceeding Congress’s authority under
the Commerce Clause.

Morrison, 529 U.S. at 605, 613,

617, 120 S.Ct. at 1747, 1751-52, 1754. While

Morrison

involved a wholly different statute, Thomas cites

Morrison

for its dicta discussing the
Lopez decision, its reasoning,
and its labeling of the “link between gun possession and
a substantial effect on interstate commerce” as attenuated.
Id. at 609-14, 120 S.Ct. at 1749-52.

B. Post-Lopez Amendment to

18 U.S.C. § 922(q)

Responding to
Lopez, Congress amended
§ 922(q) to
include an express interstate commerce requirement. See Pub.
L. No. 104–208, 110 Stat. 3009–369 to 370 (1996) (amending
the Gun–Free School Zones Act of 1990).
Section 922(q)
now requires that the offender “knowingly [ ] possess a
firearm that has moved in or that otherwise affects interstate or
foreign commerce at a place that the individual knows, or has

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4 13a

United States v. Thomas, 767 Fed.Appx. 758 (2019)

reasonable cause to believe, is a school zone.”

18 U.S.C. §

922(q)(2)(A) (emphasis added). Congress also amended §
922(q) to include extensive congressional *763 findings
regarding the effects upon interstate commerce of gun
18 U.S.C. § 922(q)(1)(A)-

possession in a school zone. See
(I).

C. Thomas’s Constitutional Claims
As an initial matter, because Thomas failed to raise his
§ 922(q) below, we review it
constitutional challenge to
for plain error. See United States v. Wright, 607 F.3d 708, 715
(11th Cir. 2010).
Although Thomas argues that the amended
is facially unconstitutional based on

§ 922(q)

Lopez, Congress

amended
§ 922(q) to include an explicit “affecting
interstate commerce” element to cure the deficiencies
identified in
Lopez. See
18 U.S.C. § 922(q)(2)
(A) (providing that the offender must possess “a firearm
that has moved in or that otherwise affects interstate or
foreign commerce”). The amended
§ 922(q) also includes
extensive congressional findings regarding the effects upon
interstate commerce of gun possession in a school zone
post- Lopez, such as that firearms move easily in interstate
commerce and that they move in interstate commerce during
their manufacturing process. See
(C), (D).
Thomas’s reliance on

18 U.S.C. §§ 922(q)(1)

Morrison fares no better. Although

Lopez version of

all the amended version of
unconstitutional. See
S.Ct. at 1749-52.

United States v. Danks, 221 F.3d 1037, 1038-39 (8th Cir.
1999); see also Thomas More Law Ctr. v. Obama, 651 F.3d
529, 555 (6th Cir. 2011) (commenting that “[a]ll of the courts
of appeals to consider the question have upheld the amended
[ § 922(q) ] against commerce clause challenges”). At a
minimum, Thomas has failed to demonstrate plain error as
§ 922(q) because neither the

to the constitutionality of

Supreme Court nor this Court has held that the amended

§

United States v. Castro,
922(q) is unconstitutional. See
455 F.3d 1249, 1253 (11th Cir. 2006).
As to Thomas’s argument that

§ 922(q) is unconstitutional

§ 922(q) now requires a
as applied to him, the amended
nexus to interstate commerce where the firearm has moved in
or otherwise affects interstate commerce. See
18 U.S.C. §
922(q)(2)(A). And the record here established that Thomas’s
firearm had moved in interstate commerce. The factual basis
in Thomas’s plea agreement stated that the firearm Thomas
possessed traveled in or affected interstate commerce because
it was manufactured in Arizona and he possessed it in
Florida. 2 Therefore, Thomas has failed to show plain error
§ 922(q), and we affirm his

as to the constitutionality of
Count 2 conviction under
(4).
2

the Supreme Court in
Morrison referenced an attenuated
link between interstate commerce and firearm possession in
the pre-

Nieves-Castano, 480 F.3d 597, 601 (1st Cir. 2007); United
States v. Dorsey, 418 F.3d 1038, 1046 (9th Cir. 2005); and

§§ 922(q)(2)(A) and

924(a)

As an additional point, at Thomas’s change-ofplea hearing, Thomas’s counsel confirmed that the
government would have been able to prove at trial
that the firearm traveled in interstate commerce.

§ 922(q), it did not address at
§ 922(q), much less hold it is

Morrison, 529 U.S. at 609-14, 120

Thomas next argues, for the first time on appeal, that his

The government stresses that Thomas has not shown that
§ 922(q) is unconstitutional. Our sister circuits under de
novo review have rejected constitutional challenges to
922(q) that were similar to Thomas’s. See

III.
18 U.S.C. § 922(g)(1):
Felon in Possession of a Firearm

Count 1 conviction should be vacated because
*764 18
U.S.C. § 922(g)(1) is unconstitutional, both facially and as
applied.

§

United States v.

This Court has repeatedly held that
§ 922(g)(1) is not a
facially unconstitutional exercise of Congress’s power under

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5 14a

United States v. Thomas, 767 Fed.Appx. 758 (2019)

the Commerce Clause. Wright, 607 F.3d at 715. This is

error. Wright, 607 F.3d at 715. Thomas’s facial and as applied

because
§ 922(g)(1) contains an express jurisdictional
requirement. United States v. Scott, 263 F.3d 1270, 1273

challenges to the constitutionality of

(11th Cir. 2001). Specifically,
18 U.S.C. § 922(g)(1)
provides that “[i]t shall be unlawful for any person who
has been convicted in any court of, a crime punishable by
imprisonment for a term exceeding one year ... to ... possess
in or affecting commerce, any firearm or ammunition....”
18 U.S.C. § 922(g)(1) (emphasis added). This Court has
explained that the phrase “in or affecting commerce” in
§ 922(g)(1) indicated Congress’s intent to assert its full
Commerce Clause power. Wright, 607 F.3d at 715; see also
United States v. Nichols, 124 F.3d 1265, 1266 (11th Cir.

§ 922(g)(1) fail. First,

this Court’s precedent in Wright, Scott,
Jordan establish that

McAllister, and

§ 922(g)(1) is facially constitutional,

even considering the holding in
Lopez. See Jordan, 635
F.3d at 1189; Wright, 607 F.3d at 715-16; Scott, 263 F.3d
at 1273;
McAllister, 77 F.3d at 389-90. Under the prior
panel precedent rule, “a prior panel’s holding is binding
on all subsequent panels unless and until it is overruled or
undermined to the point of abrogation by the Supreme Court
or by this court sitting en banc.”
United States v. Archer,
531 F.3d 1347, 1352 (11th Cir. 2008).

1997). 3

In addition, in Wright, this Court rejected the defendant’s

§ 922(g)(1) is not unconstitutional as applied to
Second,
Thomas, who possessed the firearm only intrastate, because
the record established that Thomas’s firearm had moved in
interstate commerce. See Jordan, 635 F.3d at 1189. As we
explained above, the factual basis in Thomas’s plea agreement
stated that the firearm Thomas possessed traveled in or
affected interstate commerce because it was manufactured in
Arizona and he possessed it in Florida. Therefore, Thomas
has failed to establish error, plain or otherwise, and we affirm

challenge that

his *765 Count 1 conviction under

3

Thomas recognizes that this Court has already
rejected his claim that
unconstitutional

in

light

§ 922(g)(1) is
of

Lopez

and

Morrison, and, therefore, states that he is
preserving his arguments for further review.
§ 922(g)(1) was unconstitutional as

applied to him because
§ 922(g)(1) only required that
the government prove some minimal nexus to interstate
commerce, which was accomplished by demonstrating that
the firearms the defendant possessed were manufactured in a
different state than the one in which the offense took place.
607 F.3d at 715-16. In so ruling, this Court concluded that
the firearms necessarily traveled in interstate commerce, and,
therefore, satisfied the minimal nexus requirement. Id. at
716; see also
United States v. McAllister, 77 F.3d 387,
389-90 (11th Cir. 1996) (holding that, even in the wake of
Lopez, as long as the firearm in question has a minimal
nexus to interstate commerce, § 922(g)(1) is constitutional
as applied); United States v. Jordan, 635 F.3d 1181, 1189 (11th
Cir. 2011) (holding that § 922(g)(1) is not unconstitutional
as applied to “a defendant who possessed a firearm only
intrastate” because the government demonstrated that the
firearm moved in interstate commerce).
To begin, because Thomas failed to raise his constitutional
challenge to

§ 922(g)(1) below, we review it for plain

§§ 922(g)(1) and

924(a)(2).

IV. Deficiency of Indictment and Plea Colloquy
[2] Finally, Thomas argues, for the first time on appeal, that
his Count 1 conviction is invalid because his indictment and
plea colloquy failed to allege and establish that he knew
that, at the time of his possession, he was a convicted felon
prohibited from possessing a firearm. 4 Stated another way,
he asserts that § 922(g)(1) includes a mens rea element that
requires the government to establish that he knew about his
prohibited status as a convicted felon when he possessed the
firearm. 5
4

When a defendant challenges the adequacy of an
indictment for the first time on appeal, “this Court
must find the indictment sufficient unless it is
so defective that it does not, by any reasonable
construction, charge an offense for which the
defendant is convicted.” United States v. Pena,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6 15a

United States v. Thomas, 767 Fed.Appx. 758 (2019)

684 F.3d 1137, 1147 (11th Cir. 2012) (quotation
marks omitted). We review for plain error when
a defendant fails to object in the district court to
a claimed Federal Rule of Criminal Procedure 11
violation. United States v. Rodriguez, 751 F.3d
1244, 1251 (11th Cir. 2014).
5

Rather, for an offense under
§ 922(g)(1), the government
need prove only that a defendant with a requisite felony
conviction “knowingly” possessed a firearm.
Deleveaux,
205 F.3d at 1298. That is, “[t]he prosecution need only show
that the defendant consciously possessed what he knew to

Thomas does not dispute on appeal that he is a
convicted felon. And at his change-of-plea hearing,
Thomas confirmed that he was a convicted felon at
the time he possessed the 9 millimeter firearm near
the high school and Thomas’s counsel stated that
the government would have been able to prove at
trial that Thomas was a convicted felon.

be a firearm.”

have consistently held that
§ 922(g) is a strict liability
offense that ‘does not require the prosecution to prove that
the criminal acts were done with specific criminal intent.’
”). Therefore, the only element of
§ 922(g)(1) that has a
“knowing” mens rea requirement is possessing a firearm. See

Under
18 U.S.C. § 922(g)(1), “[i]t shall be unlawful
for any person who has been convicted in any court of, a
crime punishable by imprisonment for a term exceeding one
year ... to ... possess in or affecting commerce, any firearm
or ammunition.” The penalty provision states “[w]hoever
knowingly violates subsection ... (g) ... of

section 922 shall

be ... imprisoned not more than 10 years.”
924(a)(2).

Id.; see Palma, 511 F.3d at 1315 (“We

18 U.S.C. §

Palma, 511 F.3d at 1315;
*766 United States v. Brantley,
68 F.3d 1283, 1290 (11th Cir. 1995) (analogizing the mens rea
showing required by

924(c) and citing

Langley for support that, because
§ 922(g)(1) requires
proof of mens rea as to possession of a firearm, there is no
need to prove mens rea as to the other elements). 6
6

“To prove that a defendant committed an offense under 18
U.S.C. § 922(g)(1), the government must show that (1) he[ ]
knowingly possessed a firearm or ammunition, (2) he[ ] was
previously convicted of an offense punishable by a term of
imprisonment exceeding one year, and (3) the firearm or
ammunition was in or affecting interstate commerce.” United
States v. Palma, 511 F.3d 1311, 1315 (11th Cir. 2008); see also

§§ 922(g)(1) and

Thomas acknowledges that this Court has rejected
this argument as well, and, therefore, he advances
it now for preservation purposes only.

Here, Thomas’s argument—that his indictment and plea
colloquy were deficient because
§ 922(g)(1) requires
that the government prove that he knew his prohibited
status when he possessed the firearm—is precluded by our

United States v. Deleveaux, 205 F.3d 1292, 1296-97 (11th
Cir. 2000).

binding precedent.
Section 922(g)(1) does not contain a
mens rea requirement with respect to the convicted-felon
prohibited-status element. See Palma, 511 F.3d at 1315;

This Court has already held that
§ 922(g)(1) does
not require proof that a defendant knew that his firearm
possession was unlawful due to his convicted-felon

Deleveaux, 205 F.3d at 1296-98;
Jackson, 120 F.3d at
1229. Although Thomas argues that this Court’s precedent
was wrongly decided, these decisions have not been overruled
by the Supreme Court or this Court sitting en banc, and,

prohibited status.

therefore, they remain binding precedent. See

United States v. Jackson, 120 F.3d 1226,

Archer,

(1), particularly the predecessor statutes to
§ 922(g)(1),
showed that a defendant’s knowledge of his convicted-felon

531 F.3d at 1352;
United States v. Steele, 147 F.3d
1316, 1317-18 (11th Cir. 1998) (en banc) (explaining that
the prior panel precedent rule controls even if the later
panel is “convinced [the earlier panel’s holding] is wrong.”).
Accordingly, Thomas has failed to establish error, plain or

status and illegality of his conduct were irrelevant. See

otherwise, and we affirm his Count 1 conviction under

1229 (11th Cir. 1997). In

Jackson, this Court explained

that a review of the legislative history of

§ 922(g)

id.

(citing
United States v. Langley, 62 F.3d 602, 604-06 (4th
Cir. 1995) ).

922(g)(1) and

§§

924(a)(2).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7 16a

United States v. Thomas, 767 Fed.Appx. 758 (2019)

V. CONCLUSION

AFFIRMED.

For the reasons stated, we affirm Thomas’s Count 1 and Count
2 convictions.

All Citations
767 Fed.Appx. 758

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8 17a

